r

WAIVER
Supreme Court of the United States
No. 19-853
Sandra R., et al.
(Petitioners)

v.

Arizona Department of Child Safe
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
DI There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Arizona Department of Child Safety

I am a member of the Bar of the Supreme Court of the United States.
(X I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
Date:

01/17/2020

(Type or print) Name

Autumn L. Spritzer
❑ Mrs.
0 Mr.
154 Ms.

0 Miss

Firm Office of the Arizona Attorney General, Child & Family Protection Division- Appeals
Address 4211 S. Santa Rita Ave., Suite 101
City & State Tucson, AZ
Phone

Zip 85714

520.746.4451

SEND .A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Kristina B. Reeves, counsel for Petitioners; Gillespie, Shields, Goldfarb, & Taylor; 7319 N.
16th St., Suite 100, Phoenix, AZ 85020
Lindsey Richardson, Guardian ad Litem for the Child; Office of the Legal Advocate; 222 N.
Central Ave., Suite 154, Phoenix, AZ 85004-2452

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

RECEIVED
JAN 2 7 2020

OFFICE OF

LERK

SUPREME COURT. U.S.

